                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

 Case Number: A11040026                                                                          Page 1 of 1



                                                        Closeout

                 We received a substantive allegation that a PI1 (Subject) plagiarized text in an NSF Proposal. 2
         We referred the investigation to the University/ which communicated with a grant writer who
         assisted the Subject and reviewed other documents and proposals. The University concluded, based
         on a preponderance of the evidence, that the Subject committed plagiarism in two NSF Proposals. 4

                 We could not accept the University's Report in its totality, and we therefore conducted our
         own investigation. We wrote to the grant writer to obtain previous versions ofthe first NSF proposal
         and to analyze the second NSF Proposal. Despite the Subject stating first that software deleted his
         quotation marks and later stating that he did not know about quotation marks, we found that earlier
         versions of the first NSF proposal had contained other properly cited and quoted material, deleted
         during editing. Based on the preponderance of the evidence, we concluded that the Subject
         knowingly plagiarized in his NSF Proposal, which we deemed a significant departure from accepted
         practices and recommended actions to protect federal interests. The Senior Advisor to the Director
         concurred with our recommendations.

                 This memorandum, the attached Report of Investigation, and the Senior Advisor's letter
         constitute the case closeout. Accordingly, this case is closed.




NSF OIG Form 2 (11102)
SENSITIVE                                                                              SENSITIVE




      National Science Foundation
        Office of Inspector General




                 Report of Investigation
                Case Number A11040026
                             March 27, 2013

                        This Report of Investigation is provided to you
                                  FOR OFFICIAL USE ONLY.
 It contains protected personal information, the unauthorized disclosure of which may result in
 personal criminal liability under the Privacy Act, 5 U.S.C. § 552a. This report may be further
 disclosed within NSF only to. individuals who must have knowledge of its contents to
 facilitate NSF's assessment and resolution of this matter. This report may be disclosed
 outside NSF only under the Freedom of Information and Privacy Acts, 5 U.S.C. §§ 552 &
 552a Please take appropriate precautions handling this report of investigation.

                                                                             NSF OIG Form 22b (1/13)
SENSITIVE                                                                             SENSITIVE


                                   Executive Summary

Allegation:      Plagiarism.

OIG Inquiry:     OIG identified 8 sources from which approximately 87lines and 23 embedded
                 references were copied into an NSF proposal (Proposal!) that had only one PI
                 (Subject). The subject asserted that format conversion caused quotation marks
                 and citations to disappear while sending Proposal! to a university grant
                 writing assistant. OIG referred investigation of the matter to the Subject's
                 university (University).

University
Investigation:   The University examined another NSF proposal (Proposal2) and determined it
                 also contained plagiarized text. During the University's investigation, the
                 Subject argued that he had not understood that quotation marks should be
                 used. The University concluded that research misconduct had occurred.
OIG
Investigation:   OJG analyzed Proposal2 and concurred that it contained plagiarized text: 38
                 lines with 3 embedded references from 5 sources. We also contacted the grant
                 writer, who provided us with previous versions of Proposal!. We found no
                 evidence of inadvertent deletions, but found evidence that the Subject
                 understood the need to use quotation marks.
OIG
Assessment:
                 •   The Act: The Subject plagiarized .125 lines from 13 sources into 2 NSF
                     proposals.
                 •   Intent: The Subject acted knowingly.
                 •   Standard of Proof: A preponderance of evidence supports the conclusion
                     that the Subject committed knowing plagiarism.
                 •   Significant Departure: The Subject's plagiarism represents a significant
                     departure from accepted practices of the research community.
                 •   Pattern: The Subject's actions demonstrate a pattern of plagiarism.

OIG
Recommends:
                 •   Make a finding of research misconduct against the Subject.
                 •   Send the Subject a letter of reprimand.                  ·
                 •   Require certifications from the Subject for a period of2 years.
                 •   Require assurances from the Subject's employer for a period of2 years.
                 •   Require proof of completion by the Subject of an RCR training program
                     within 1 year.
                 •   Ban the Subject from participating as a reviewer, advisor, or consultant for
                     NSF for a period of 2 years.




                                               1
    SENSITIVE                                                                                                                                                                                                                                   SENSITIVE


                                                                                                                       OIG's Inquiry

           We conducted an inquiry into an allegation of plagiarism in an NSF proposal
    (Proposal I ). 1 Our review identified 87lines and 23 embedded references apparently copied from
    8 sources? We contacted the         (Subject) about the allegation. 4               Pe
        In his response, 5 the Subject explained that his use of LaTeX software caused formatting
errors while sending and receiving drafts from a university grant writer. He statC?d that the LaTeX
conversions caused the quotation marks to disappear, along with phrases such as "As shown
by."6 The Subject's claim that he had originally quoted large blocks of text lacked credibility. In
addition, the subject did not provide evidence of drafts to show that sufficient citation originally
.o"'U';n+o,ri' \iio.              -n'!"'!!!"~TnrlPri                  th-:!-!-   ".:l   .fnli    ;n·u~~-hn-:::l~£"!.~                    4""!;...f+ho   ~nh;n.ro.-t-?Cf ":::!......,.-h.n"!"l!!:'" "!:"H~~ "!':!.~~~n~+.a.ri'                 ~~~~!:"!~!""+L::!!.~+
"-'Ai;:,i,i;;-t..i..   Tl""' '-' ...... ...,........_ ... w.'-1---.   ~t.        ...,_ ................. .LLL"Y V1<3~f'&.&.'-L..._,.LL   '-'..1.. "-U·''•' .._,WVJ"""'"'   .::J UVI..I.'-'.I..LL3   Y'YU.~   YWLI.I..I..IL&J.L\o'-''to.f..•   '--'VJ.J.~.I..~L.""'.I.U,

                                                          7                                                                                                                                                       8
with our regulation, we referred the investigation to the Subject's University.

                                                                                                       University Investigation

       The Research Integrity Officer (the RI0), 9 consistent with University policy, 10 assembled
a committee (the Committee) to conduct the investigation and produce an investigation report
(the Report). 11             .                                     ·


        Because the Subject blamed the lack of proper attribution on the LaTeX-formatted PDFs
exchanged With a University grant writer (the Grant Writer), the RIO contacted the. Grant
Writer 12 to obtain more information. According to the Report, the Grant Writer "indicated that
she converted files between Word and Adobe Acrobat, but did not feel that this would result in
loss of quotation marks or references." 13 Elaboration or documentation of that conversation was
not included with the Report

       The Committee examined Proposal I and its alleged sources and produced a brief
summary analysis. 14 It stated that ''there is far, far too much duplication of material from many
sources, whether cited or not" 15 and that the Subject "must have been aware" that others'
wording had to be properly attributed. 16 The Committee concluded that "there was substantial


                                                                                                                                                                                                                                              (Declined).




5
     Tab 4.
6
     Tab 4 NSF_Inquiry Response, p. 2.
7
     45 C.F.R                       689..
8




13
   Tab 7, p. 3. (p. 5 of PDF)
14
   Tab 8 Attachment C.
15
   Tab 8 Attachment C, p. 2.
16
   Tab 8 Attachment C, p. 2.


                                                                                                                                         2
SENSITIVE                                                                                                 SENSITIVE


 and egregious duplication from articles with insufficient or missing attribution'' 17 that constituted
                        18
 a significant departure from accepted practices in the Subject's field. It further concluded the
 act was committed with a level of intent requisite for research misconduct, though the
.Committee did not specify at which level.

        The Subject submitted a response to the Committee's analysis, 19 stating that he either
"carelessly deleted" the reference or made a "careless" mistake in forgetting the reference. 20 He
also wrote that he was not desperate for a grant and therefore "had no motivations or reasons to
intentionally plagiarize."21 He continued, stating that ''the large amount of psychological and
mental pressure of meeting deadlines led to the occurrence of these unintentional mistakes and
for not reviewing the reference list and [LaTeX] text of the proposal."22 He reiterated that the
LaTeX conversion caused inadvertent deletions during editing. The Committee determined that
the Subject's response did not alter its conclusions. 23

         At oU:r request to evaluate pattern, the RIO and another University Official (the
Director)24 analyzed other documents authored by the Subject and identified possible plagiarism
in another NSF Proposal (Proposal2) 25 and in the Subject's dissertation. 26 The Subject sent a
letter to the RIO responding to allegations of plagiarism in Proposal2?7 In it, he objected to the
composition of the Committee, due to a perceived conflict of interest; he also challenged the fact
that the Committee had raised allegations of research misconduct in a proposal, asserting "[t]he
research proposal was not a publication, but a proposal aimed at extending results of two
publications." 28

        The University determined the Committee should review the alleged plagiarism in
Proposal2 but that the investigation of the dissertation should be handled separately, since it
pertained to the Subject's time as a student at the University. In a summary analysis of
Proposal2,29 the Committee concluded it "contains an unacceptable degree of use of other
authors' wording, sentences and paragraphs without quotation marks or adequate citation. This
constitutes plagiarism."30 The Committee recommended that:

          1) The Subject undergo training, and


 17
   Tab 8 Attachment C, p. 2.
 18
   Tab 8 Attachment C, p. 2.
19
   Tab 8, Attachment A.O. (Though the Report indicates this is Attachment D, we did not receive it labeled as such.)
20
   Tab 8, Attachment A.O. Terms appear throughout pages 1 and 2.
21
   Tab 8, Attachment A.O., p. 4.
22
   Tab 8, Attachment A.O., p. 6.
23
   Tab 7         4 of
 24




    The dissertation              our              so while it may be evaluated when considering pattern, we did not
 seek details of the findings to include in our investigation.
 27
    Tab 8, Attachment F.
 28
    Tab 8, Attachment F, p. 4.
 29
    Tab 8, Attachment E.
 30
    Tab 8, Attachment E, p. 5.


                                                           3
 SENSITIVE                                                                                   SENSITIVE


           2) The Subject be barred from submitting proposals for two years, after which he must
              submit with a co-PI for three years and have all proposals screened with plagiarism
              checking software.

           The Subject sent a response31 to the Committee's second analysis via his attorney. 32 In
 the response, the Subject stated his objections to the members selected for the Committee
 asserting that they lacked "experience adjudicating plagiarism claims"33 and "expertise
 investigating plagiarism cases" 34 as well as the fact that two of the members had been
 "embroiled in public controversy''35 with the Subject's close colleague. On the last point, the
 Subject expressed that, at the very least, the two Committee members in question created the
 appearance o£a conflict of interest. The Subject also objected to the terms used by the
 Corr.=.rrrittee;J stating that it used a ~~non-eYistent standard it termed !extremely egregious~~~ 36
 instead of employing existing culpability standards. 37 The response concluded by saying that the
 Subject had been previously unaware of proper citation practices and therefore only remedial
 sanctions were appropriate. 38

         The Committee submitted a formal response to the Subject's comments. 39 It addressed
 the appearance of conflict of interest, stating that it had "deliberated this matter objectively'',
 finding that the two Committee members in question "had only very limited interaction with" the
 Subject prior to the investigation. 40 The Committee also asserted that the definitions for the
 qualifying terms (''moderately egregious, egregious, and extremely egregious'.4 1) were defined in
                            42
 the analysis ofProposal2. lt provided an example that fit the term "highly egregious", stating
 that "[w ]e view this plagiarism as highly egregious because tracts totaling 311 words with 264
 duplicated from this source without the appropriate reference or quotation marks [sic].',43 The
 Committee further stated that it agreed that the sanctions should be remedial and emphasized that
 its recommendations were consistent with those at other universities for similar actions.

        The RIO concurred with the Committee's findings, stating that pn;ponderance of the
 evidence supported evidence ofintentionality. 44 The RIO ~ccepted the Committee's
 recommendations, adding that for the three years following the two-year ban, the Subject and his
 co-PI(s) must also submit Written assurances .




 32···
. 31Tab

 33
    Tab 8, Attachment D, p.
 34
    Tab 8, Attachment D, p. 6.
 35 Tab 8, Attachment D, p. 6.
 36
    Tab 8, Attachment D, p. 5
 37
    Tab 8, Attachment D, p. 15.
 38
    Tab 8, Attachment D, p. 20.
 39
    Tab 8, Attachment G.
 40
    Tab 8, Attachment G, p. 1.
 41 Tab 8, Attachment G, p. 2.
 42
    We did not find any definitions in any of the reports.
 43
    Tab 8, Attachment G, p. 2.
 44
    Tab 7, p. 5. (p. 7 ofPDF)


                                                             4
SENSITIVE                                                                                SENSITIVE


         The Subject arpealed the findings and the matter was adjudicated by the Provost. 45 In her
detennination letter,4 the Provost wrote, "[w]hat most concerned the [Committee] and supported
their finding of plagiarism were the numerous examples of substantial duplication of other
                                                                                     47
authors' work, without the use of quotation marks, adequate citation or reference." She noted
that when the RIO first told the Subject via telephone who the Committee members were, he did
not object; instead, he objected after receiving a draft of the Committee's analysis ofProposall,
which concluded misconduct had occurred.48 She concluded that the preponderance of evidence
supported the RIO's and the Committee's findings and accepted their recommendations.

                               OIG's Assessment of the University Report

       We assessed the Report for accuracy and completeness and whether the University
followed reasonable procedures in its investigation.49 We found that the University's Report did
not adequately address level of intent for determining a finding of research misconduct based on
our regulation. In addition, there was a lack of documentation regarding communication with the
Grant Writer or attempts to obtain previous versions of Proposal I. Further, we had difficulty
analyzing the University's iThenticate analysis ofProposal2.

        It was therefore necessary to conduct our own investigation, in order to review Proposal2
and examine previous versions of Proposal I.

                                           OIG's Investigation

        We notified the Subject that we were proceeding with our own investigation and
requested that he send us a CV, an explanation for the apparently copied text in Proposal2, and a
description of his understanding of plagiarism before receiving our inquiry letter. 50 We also
invited his comments on the University Report.

        Attached to the Subject's response 51 was the Subject's CV as well as other supporting
documents. 52 In the letter, the 'Subject provided extensive comment on the University Report,
reiterating his concerns about the perceived conflicts of interest oftwo Committee members and
the Committee's creation of novel labels to evaluate levels of plagiarism. He objected to the fact
that the Committee, as opposed to the RIO, deliberated on its own potential conflict and
determined there was none. He argued that the plagiarism found by the University could not have
been committed intentionally because "all of the portions of[the Subject]'s proposals that were
flagged as suspect were descriptive in nature and part of the background materials presented in




45._............................................
46
   Tab 9.
47
   Tab 9, p. 7.
48
   Tab 9, pages 2, 3, and 8.
49
   45 C.F.R. §689.9(a).
50
   Tab 10.
51
   Tab 11 Letter.
52
   Tab 11 Attachments.


                                                  5
 SENSITIVE                                                                                                                                                            SENSITIVE


 the proposals." 53 He stated that the words copied into the Proposals "were merely introductory
 in nature" and that the primary sources of the facts were cited. 54

         With regard to Proposal2, the response primarily directed us to review the Subject's ·
 response 55 to the University's allegations about Proposal2. The letter argued that there was no
 scientific misconduct because the Subject was able to revise Proposal2 in 90 minutes without
 changing any of the proposed scientific work. 56 The Subject stated that the "academic merit of
 the submission" 57 was therefore unaffected by the presence of copied text.

               With regard to Proposal I, the letter says, "[p]rior to the NSF inquiry, [the Subject] did
 ~~~~~~~!~~, ~~~~e ~~~ :~~~~~~ ;~-u~=L~~~~a:~o~ ~~~-~~~~~~=~-~~~tL~~:t~~ to:~e~' ~
 ~UU!l.:;t:J   Hl!'ilG! :!i::ii WG".!V .H.l!:tl. n::;_   VY   ~ !:!..!~0   !!Ui..C!U U!tll:;; HI   un:; L:tliUJCL!...   ~ i{:IIS}lU.!!_;:j~   !...U   i i ~~LUi i i i i i i i..L~   L!o

 analysis ofProposall, be states that the lack of citation was partly due to at least four other
 converging deadlines be had occurring simultaneously with Proposal I 's deadline, leading to ''the
 most pressure I bad ever in my entire life."59

         We reviewed the Subject's CV and found that he has authored or co-authored more than
 16 publications in English-langilage journals and has received four awarded grants from U.S.
 Government agencies. In addition, the Subject bas two Ph.D. degrees, one from a University in
 the United States, and one earned elsewhere. Such expansive exposure to research articles and
 literature (even when earning a Ph.D. elsewhere) increases the likelihood that the Subject was
 aware of the proper attribution practices.

          We wrote60 to the Grant Writer, requesting copies of all versions of Proposal I that were
  exchanged between her and the Subject. She provided us with five previous versions. 61 From the
  emails she sent us, their exchange process was clarified: the Subject used LaTeX to create a PDF
· that he sent to her, she converted the PDF to a Word document, and then she tracked changes and·
  sent the document back to the Subject.

        We reviewed the draft documents for the citations, and/or quotation marks that the
Subject claimed were deleted by LaTeX, but we did not find evidence these items were ever
present. In fact, we found that when the Grant Writer reworded several sections for the
Subject, she actually deleted plagiarized text from the Subject's draft. Based on our review of
the documents, the evidence does not support the Subject's claims regarding LaTeX. For
example, iri one statement, the subject wrote: "In case of HI, for example, I clearly remember
that I had started my sentence with As cited in the recent work ofH, and I clearly remember


53
   Tab 11 Letter, p. 5.
54
   Tab 11 Letter, p. 8. We noted that most of the "primary source" citations were due to his 26 embedded references
(in-line citations copied along with text from the Sources, which were not themselves cited).
55
   Tab 8, Attachment F.
56
   Tab 11 Letter, p. 9.
57
   Tab 11 Letter, p. 9.
58       .
   Tab 11 Letter, p. 10.
59
   Tab 8, Attachment A.O., p. 6.
60
   Tab 12.
61
   Tab 13.


                                                                                       6
SENSITIVE                                                                                               SENSITIVE


that the whole part was italicized [sic]."62 With regard to Source H, he later stated, "I did
quote it between two commas (Which was again, according to my understanding of
paraphrasing, acceptable) and I just forgot to put the reference in." 63 However, our review of
previous drafts of the Proposal found that the text copied from Source H never had a citation
or prose reference to H, quotation marks, or commas. Most importantly, we found that, in the
earliest version of the draft proposal sent to the Grant Writer, the Subject did properly quote
and cite a sentence from an- academic journal. 64 Therefore, it appears that the Subject did
understand the practice of quoting and citing.

        We also reviewed Proposal2 65 ahd found 381ines of improperly attributed text, as well
as 3 embedded references from 5 sources. The Subject previously stated that the lack of proper
attribution for the largest portion of copied text was a "mistake" due to "carelessness". 66 He
stated that Source 6 was "inadvertently not cited"67 but that he did not use the source in the
proposal. He explained that Source 7 was cited as "[37]", though we found that this was actually
an embedded reference and not a reference to the source text. For much of the other text, he
argued that the language was common in his field, though we determined that only the sources
we located contained the verbatim text. We concluded that the Subject's explanations for
Proposal2 were not adequate to dispel allegations of plagiarism.

                                               OIG's Assessment

       A finding of research misconduct by NSF requires (1) there be a significant departure
from accepted practices of the relevant research community~ (2) the research misconduct be
committed intentionally, or knowingly, or recklessly, and (3) the allegation be proved by a
preponderance of the evidence. 68

                                                     The Act

       Our review found the Subject copied 125 lines and 26 embedded references from 13
sources into 2 NSF proposals. The Subject's actions constitute plagiarism and are a significant
departure from accepted practices.

                                                      Intent

        We find that the Subject acted knowingly. During the course of obtaining two doctoral
degrees and authoring or co-authoring over a dozen articles, the Subject would have had a great
deal of exposure to proper research practices as it relates to attribution of others work. Further,
we found evidence that the Subject properly quoted and cited material in the original version of
Proposal!, though it was deleted during editing. This demonstrates that the Subject was aware of

62
   Tab 4 NSF Inquiry Response, p.4.
63           -
   Tab 8, Attachment A.O., p. 2.
64
   See Tab 13, Document 1, p. 2. The quoted and cited sentence is indicated by an asterisk and red highlighting. The
paragraph containing this properly denoted and cited sentence was deleted by the Grant Writer while editing.
65
   Tab 14, Annotated Proposal.
66
   Tab 14, Copy of Subject Letter, p. 5.
67
   Tab 14, Copy of Subject J;.,etter, p. 5.
68
   45 C.F.R. §689.2(c).


                                                          7
 SENSITIVE                                                                                SENSITIVE


acceptable practices for proper attribution, but chose to ignore those attribution requirements in
his NSF proposals. Finally, we note that the Subject's original claim that the quotation marks and
other attempts at attribution were inadvertently deleted as a result of a technical computer error,
directly conflicted with the Subject's most recent claim that he did not know or understand the
need for proper attribution practices. The Subject's conflicting responses strain the credibility of
his claim of carelessness.

                                           Standard ofProof

      A preponderance of the evidence supports that the Subject committed plagiarism
knowingly.         ·

                                   OIG's Recommended Disposition

       When deciding what appropriate action to take upon a finding of misconduct, ·NSF should
consider:
             (1) How serious the misconduct was; (2) The degree to which the .
             misconduct was knowing, intentional, or reckless; (3) Whether it
             was an isolated event or part of a pattern; (4) Whether it had a
             significant impact on the research record, research subjects, other
             researchers, institutions or the public welfare; and (5) Other
             relevant circumstances. 69

                                              Seriousness

        In NSF's assessment, the background and literature review sections are vital indicators of
a PI's ability to authoritatively summarize previous research to demonstrate expertise and
knowledge of the state-of-the-art. Copied text, particularly in the background section of an NSF
Proposal, serves to misrepresent a researcher's command of previous research, presenting
reviewers with an inaccurate representation of a proposal's respectiv~ merit.

                                                Pattern

           The evidence supports that the Subject has a pattern of misconduct.

                                      Impact on Research Record

       Because we identified no publications containing plagiarism, we conclude there was no
discernible impact on the research record.




69
     45 C.F.R. § 689.3(b).


                                                   8
SENSITIVE                                                                                   SENSITIVE


                                               Recommendations

        Based on the evidence, OIG recommends NSF:

             •    Send a letter of reprimand to the Subject notifying him that NSF has made a
                                                   70
                  finding of research misconduct;
             •    Require the Subject to certify to the Assistant Inspector General for Investigations
                  (AlGI) his completion of a responsible conduct of research training program and
                  provide documentation of the program's content within 1 year ofNSF's finding. 71
                  The instruction should be in an interactive format (e.g., an instructor-led course)
                  and specifically include instruction on plagiarism and proper demarcation of
                  verbatim text.

         For a period of2 years as of the date of NSF's finding:
             • Bar the Subject from participating as a peer reviewer, advisor, or consultant for
                NSF. 72
             • Require for each document (proposal, report, etc.) to which the Subject
                 contributes for submission to NSF (directly or through his institution),
                    o the Subject to submit a contemporaneous certification to the AlGI that the
                        document does not contain plagiarism, falsification, or fabrication. 73
                     o the Subject to submit contemporaneous assurances from a responsible
                        official of his employer to the AlGI that the document does not contain
                        plagiarism, falsification, or fabrication. 74




70
   A Group I action (45 C.F.R. §689.3(a)(l)(i)).
71
   This action is similar to Group I actions 45 C.F.R. 689.3(a)(l).
72
   A Group ill action45 C.F.R. 689.3(a)(3)(ii).
73
   This action is similar to 45 C.F.R. 689.3(a)(l )(iii).
74
   A Group I action45 C.F.R. 689.3(a)(l)(iii).


                                                           9
                                 NATIONAL SCIENCE FOUNDATION
                                      4201 WILSON BOULEVARD
                                     ARLINGTON, VIRGINIA 22230




                                                                                  NOV 15 Z013
    OFFICE OF THE
   DEPUTY DIRECTOR



CERTIFIED MAIL --RETURN RECEIPT REQUESTED




       Re: Notice of Research Misconduct Determination

Dear D r . - :

                           pro1po~;a1s   to the National Science Foundation (''NSF") entitled,
                                                                             and'

            As documented in the attached Investigative Report prepared by NSF's Office of
Inspector General ("OIG"), these proposals contained plagiarized material.

Research Misconduct and Sanctions

        Under NSF's regulations, "research misconduct" is defmed as "fabrication, falsification,
or plagiarism in proposing or performing research funded by NSF ... " 45 CFR § 689.l(a). NSF
defines "plagiarism" as "the appropriation of another person's ideas, processes, results or words
without giving appropriate credit." 45 CFR § 689.l(a)(3). A fmding of research misconduct
requires that:

       (1) There be a significant departure from accepted practices of the relevant research
           community; and
       (2) The research misconduct be con:unitted intentionally, or knowingly, or recklessly;
           and
       (3) The allegation be proven by a preponderance of evidence.

45 CFR § 689.2(c).

       Your proposals contained 125 lines of copied text from 13 sources. By submitting
proposals to NSF that copied the ideas or words of another without adequate attribution, as
described in the OIG investigative report, you misrepresented someone else's work as your own.
Your conduct unquestionably constitutes plagiarism. I therefore conclude that your actions meet
the applicable defmition of"research misconduct" set forth in NSF's regulations.
                                                                                                                                                  Page2
        Pursuant to NSF's regulations, the Foundation must also determine whether to make a
finding of misconduct based on a preponderance of the evidence. 45 CFR § 689.2(c). After
reviewing the Investigative Report, NSF has determined that, based on a preponderance of the                                                              . !
evidence, your plagiarisrn was committed knowingly and constituted a significant departure from
 accepted practices of the relevant research community. I am, therefore, issuing a finding of
 research misconduct against you.

          NSF's regulations establish three categories of actions (Group I, II, and III) that can be
taken in response to a finding of misconduct. 45 CFR § 689 .3(a). Group I actions include
issuing a letter of reprimand; conditioning awards on prior approval of particular activities from
NSF; requiring that an institution or individual obtain special prior approval of particular
activities· from NSF;.and requiring that an institutional representative certify as to the accuracy of
rennrt;;; Oi certifications of comnliance w1.L"'I narticular rcauirements. 45 CFR S689.3(a)(1 ).
-   -,;:-- --   --   -   ---   --   - - ---   -   -   ------...-   -   _.i._   --   -   --   .L   ----   -   -   ~   --   -~   ~-   -... - ...-


Group II actions include award suspension or restrictions on designated activities or
expenditures; requiring special reviews of requests for funding; and requiring correction to the
research record. 45 CFR §689.3(a)(2). Group III actions include suspension or termination of
awards; prohibitions on participation as NSF reviewers, advisors or consultants; and debarment ·
or suspension from participation in NSF programs. 45 CFR § 689.3(a)(3).

        In determining the severity of the sanction to impose for research misconduct, I have
considered the seriousness of the misconduct, our determination that it was committed
knowingly, and the fact that it was part of a pattern of plagiarism. I have also considered the fact
that the plagiarism did not have a discernible impact on the research record, as well as other
relevant circumstances. 45 CFR § 689.3(b).                                    .

    After assessing the relevant facts and circumstances of this case, I am imposing the following
actions on you:

        •       Until September 30, 2015, you must provide certifications to the OIG that any proposal
                or report you submit to NSF as a Principal Investigator ("PI'') or co-PI does not contain
                plagiarized, falsified, or fabricated material.

        •       Until September 30,2015, you must obtain and provide to the OIG assurances from a
                responsible official of your employer that any proposal or report you submit to NSF as a
                PI or co-PI does not contain plagiarized, falsified, or fabricated material. ·

        •       By September 3 0, 2014, you must complete a comprehensive responsible conduct of
                research training course, and provide documentation of the program's content to the OIG.
                The instruction should be in an interactive format (e.g., an instructor-led course) and
                should specifically include a discussion on plagiarism and citation practices; and

        •       Until September 30, 2015, you are prohibited from serving as a reviewer, advisor, or
                consultant for NSF.
                                                                                            Page 3
The certifications, assurances, and proof of training should be submitted in writing to NSF's
Office oflnspector General, Associate Inspector General for Investigations, 4201 Wilson
Boulevard, Arlington, Virginia 22230.

Procedures Governing Appeals                                                                          ·i




         Under NSF's regulations, you have 30 days after receipt of this letter to submit an appeal
of this finding, in writing, to the Director of the Foundation. 45 CFR 689.10(a). Any appeal
should be addressed to the Director at the National Science Foundation, 4201 Wilson Boulevard,
Arlington, Virginia 22230. If we do not receive your appeal within the 30-day period, this
decision on the finding of research misconduct will become final.

       For your information, I am attaching a
any questions about the foregoing, please contact                                            at
(703)2~.

                                                      Sincerely,




                                                      FaeKorsmo
                                                      Senior Advisor



Enclosures:
Investigative Report
45 CFR Part 689
